20-5622
NO. 20-2026

IN THE

SUPREME COURT OF THE UNITED STATES

LARRY E. STARKS JR. .-PETITIONER,

VS.

UNITED STATES DISTRICT COURT FOR THE CENTRAL DISTRICT OF ILLINOIS-RESPONDENT,

ON PETITION FOR A WRIT OF CERTIORARI FROM THE
UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

LARRY E, STARKS JR. NO. 17008-026
ASHLAND FEDERAL CORRECTIONAL INSTITUTION
P.O. BOX-6001
ASHLAND, KY. 41105-6001

RECEIVED
AUG 2 4 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTION(S) PRESENTED
A. WHETHER THE COURT OF APPEALS FOR THE SEVENTH CIRCUIT ERRED AND ABUSED ITS DISCRETION BY
TERMINATING THE INQUIRY AS TO WHETHER THE PETITIONER MET THE REQUIREMENTS TO HAVE THE WRIT
ISSUED ON THE GROUNDS THAT THE UNITED STATES DISTRICT COURT FOR THE CENTRAL DISTRICT OF
ILLINOIS COMMITTED AN EGREGIOUS...JUD-ICIALUUSURP1ATION.jOFi'BOWER. WHEN THE DISTRICT COURT
RECORD CLEARLY REFLECTS THAT THE PETITIONER WAS UNLAWFULLY SENTENCED TO THE. CAREER OFFENDER
ENHANCEMENT BY AN ACT OF THE SENTENCING COMMISSION, NOT BY AN ACT OF CONGRESS, WHICH SEVERELY
VIOLATED THE PETITIONER'S CONSTITUTIONAL RIGHT'S UNDER THE FIFTH AMENDMENT AND THE TENTH
AMENDMENT...

= i =

LIST OF PARTIES

[X] ALL PARTIES IN THE CAPTION OF THE CASE ON THE COVER PAGE.

[ ] ALL PARTIES DO NOT APPEAR IN THE CAPTION OF THE CASE ON THE COVER PAGE.
A LIST OF ALL PARTIES TO^THE PROCEEDINGS IN THE COURT WHOSE JUDGMENT IS
THE SUBJECT OF THIS PETITION IS AS FOLLOWS:

= ii =

TABLE OF CONTENTS
Opinion Below

1

Jurisdiction

2

Constitutional and Statutory Provisions involved

3

Statement of the Case.,

4

Reason for Granting the Writ

5

Question(s) Presented

i

Lists of Parties

ii

Table of Authorities

iv

Argument

6-9

Conclusion

11

INDEX TO APPENDIXES
Appendix A~1, Copy of order and opinion from the Court of Appeals denying
Petitioner's Writ of Mandamus, dated: June 23rd, 2020.
Appendix A-2, Copy of the Writ of Mandamus Petitioner filed with the Court of Appeals.
Appendix A-3, Copy of the Havis Ruling in the Court of Appeal's for the Sixth Circuit,
dated: June 9th, 2019.

= iii =

TABLE OF AUTHORITIES CITED
1). Ex parte United States, 242 U.S. 27, 39-40, 37 S. Ct. 72, L. Ed. 129 (1996)

6

2). United States v. Ralliijsga836/F53&271ji7t;li742r(7£tiiB)Lr. 2016)

9

3). Schlagenhauf v. Holder, 379 U.S. 104, 114, 85 S. Ct. 234, 13 L. Ed. 2d 152 (1964)

8

4). Cheney v. United States District Court for District of Columbia, 542 U.S. 367 (2004)..8
5). Bankers Lifeu& Casuality Co. v. Holland, supra, 346 U.S. at 383, 98 L. Ed. at 112

8

6). Stinson v. UnitgdaStates, 508 U.S. 36, 40-41 (1993)

8

7). Peugh v. United States, 569 U.S. 530, 543 (2013)

8

8). United States v. Winstead, 890 F.3d 1082, 1092 (D.C. cir. 2018)

8

9). Mistretta v. United States, 488 U.S. 361, 412 (1989)

8

STATUTES AND RULES
Rules of Appellate Procedure, Rule 20 Extraordinary Writs

OTHER

= iv =

IN THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a Writ of Certiorari issue to review the judgment below.

OPINIONS BELOW
[ ] For cases from Federal Courts:

The opinion of the united States Court of Appeals at Appendix A-l to the petition
and is

[X] reported at 20-2026; or,
[X] has been designated for publication but is not reported; or,
[ ] is unpublished

The opinion of the United States District Court appears at Appendix
to the petition and is

[ 1 reported at

; or,

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished

(1)

JURISDICTION
-['Xt].(-Cases from Federal Courts:

The date on which the United States Court of Appeals decided my case was on June 23rd,
2020.

[X] No petition for rehearing was timely filed in my case.
[ ] Av-timely petition for rehearing was denied by the United States Court of Appeals
on the following date:

, and a copy of the order denying rehearing

appears at appendix

[ ] An extension of time to file the petition for writ of Certiorarijwas granted to and
_including

(date).

The Jurisdiction of this Court is invoked under 28 U.S.C § 1254(1) and 28 U.S.C. § 1651.

(2)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Rules of Appellate Procedure, Rule 20 Extraordinary Writs

CONSTITUTIONAL PROVISIONS INVOLVED
Fifth Amendment, United States Constitution
Tenth Amendment, United States Constitution

(3)

STATEMENT OF THE CASE
On July 23rd, 2010, Petitioner was sentenced to the Career Offender Enhancement, and recieved
23# months to be served with the Bureau of Prisons. The Sentencing Court invoked the Career
Offender Enhancement on the basis that his instant offense for attempted manufacture of
methamphetamine qualified as a Controlled Substance Offense under § 4B1.2(b); Which means:
" An offense under Federal or State law, punishable by imprisonment for a term exceeding
one year, that prohibits the manufacture, import, export, distribution, or dispensing of
a Controlled Substance (or counterfeit substance) or the possession of a Controlled Substance
(or counterfeit substance) with intent to manufacture, import, export, distribute, or dispense.
The Sentencing Commission's Commentary to § 4B1.2(b) states that a Controlled Substance Offense;
" includes the offenses of aiding and abetting, conspiracy, and attempting to commit such
offenses." In United States v. Havis, Appeal No: ,17-5772, the decision from the United
States Court of Appeal's for the Sixth Circuit, revealed to the Petitioner that his instant
offense..for attempted manufacture of methamphetamine did not qualify as a Controlled Substance
Offense; and was not suppose to be used to invoke his Career Offender Enhancement. Further,
the decision revealed that the Sentencing Commission, as a non-delegated body, exceeded its
scope of authority by modifying Congress's definition of what constitutes a Controlled
Substance Offense, when they added the included offenses in the Commentary without the
authorization of Congress. Which caused a Judicial Usurpation of power that makes Petitioner's
sentence as a Career Offender unlawful. On June 15th, 2020, Petitioner filed a Writ of Mandamus
to obtain relief for his unlawful sentence. On July 23rd, 2020, the Seventh Circuit Court of
Appeal's denied the Writ without conducting an.inquiry into the Petitioner's fruitful claim
that his sentence is unlawful and a product of Judicial Usurpation of Bower.

(4)

REASONS FOR GRANTING THE PETITION
This Honorable Court has the Supervisory Power to direct United States Court of Appeals for
the Seventh Circuit to conduct a fair inquiry into the Petitioner's fruitful claim, that
his sentence is unlawful, and constitutes extraordinary circumstances that warrant mandamus
relief. Secondly, the unlawful sentence was caused by a Judicial Usurpation of Power, because
a non-delegated body, the Sentencing Commission exceeded its scope of authority by modifying
§ 4B1.2(b) without Congress's approval. The Legislative branch usurped its power by failing
to review the Commentary. Which allowed the Sentencing Commission to exceed its scope of
authority, in modifying what constitutes a Controlled Substance Offense, thereby causing
thousands of criminal defendant's to be unlawfully sentenced to Career Offender Enhancements
for decades. This was done by an act of the Sentencing Commission, not by an act of Congress.
The Commentary that added non-existent offenses to the § 4B1.2(b) Guidelines was implemented
November 1st, 1989. The Judicial branch, as a legal expert, usurped its power by failing to
identify that the added offenses in the Commentary‘was not an interpretation of what constitutes
a Controlled SubstanceoOffense under § 4B1.2(b), but a modification of that Guideline, which
has no legal force, and should not have been used as offenses to invoke Career Offender
Enhancements on criminal defendants' in the Federal system. Thirdly, the decision in United
States v. Havis, No. 17-5722, from the United States Court of Appeals for the Sixth Circuit,
revealed to Petitioner that his^,sentence was unlawful. See Appendix A-3. On June 15th, 2020,
Petitioner filed a Writ of Mandamus to obtain relief for his unlawful sentence. See Appendix
A-2. On June 23rd, 2020, the Seventh Circuit Court of Appeals denied the Writ without conducting
an inquiry into Petitioner's fruitful claim that his sentence is unlawful and a product of
Judicial Usurpation of Power. Petitioner contends that he met the requirements for mandamus
relief...

(5)

ARGUMENT
A. CONSTITUTIONAL QUESTION: WHETHER THE COURT OF APPEALS FOR THE SEVENTH CIRCUIT ERRED
AND ABUSED ITS DISCRETION BY TERMINATING THE INQUIRY AS TO WHETHER THE PETITIONER MET
THE REQUIREMENTS TO HAVE THE WRIT ISSUED ON THE GROUNDS THAT THE UNITED STATES DISTRICT
COURT FOR THE CENTRAL DISTRICT OF ILLINOIS COMMITTED AN EGREGIOUS USURPATION OF JUDICIAL
PUjEOWER. WHEN THE DISTRICT COURT RECORD CLEARLY REFLECTS THAT THE PETITIONER WAS UNLAWFULLY
SENTENCED TO THE CAREERVOFFENDER ENHANCEMENT BY AN ACT OF THE SENTENCING COMMISSION, NOT
BY AN ACT OF CONGRESS; WHICH SEVERELY VIOLATED THE PETITIONER'S CONSTITUTIONAL RIGHT'S
UNDER THE FIFTH AMENDMENT AND THE TENTH AMENDMENT...

The petitioner contends that an unlawful sentenced caused by a usurpation ..of judicial power,
because a non-delegated body, the Sentencing Commission exceeded its scope of authority by
modifying § 4B1.2(b)i without Congress's approval; constitutes extraordinary cause for mandamus
relief. The mandamus writ is one of the most potent weapons in the judicial arsenal and may
issue only if three conditions are satisfied. First, the petitioner must establish that he
has no other adequate remedy. A condition designed to ensure that the writ will not be used
as a substitute for the regular appeal process. Second, the petitioner must show that his
right to the issuance of the writ is clear and indisputable. Third, the issuing Court in the
exercise of its discretion, must be satisfied that the circumstances are appropriate to issue
writ. A "demanding standard" must be satisfied before this Honorable Court will exercise its
jurisdiction under 28 U.S.C § 1651 and issue a writ of mandamus or prohibition: it is clear
that only exceptional circumstances amounting to a judicial usurpation of power will justify
the invocation of this extraordinary remedy. And that a party seeking mandamus has the burden
that its right to issuance of the writ is clear and indisputable. The challenging of a District
Judge's power to impose the sentence, is an issue of judicial power, that has long been
recognized as falling squarely within the narrow range of cases for which mandamus relief
is appropriate. See Ex parte United States, 242 U.S. 27, 39-40, 37 S. Ct. 72, 61 L. Ed. 129
(1996);"A11 the Judicial Power of the Federal District Court's and the Judge's thereof must
be traced to theuActs of Congress passed pursuant to the Constitution."
(6)

Petitioner further contends that the Legislative branch usurped its power by^failing to review
the Commentary; which allowed the Sentencing Commission to exceed its scope of authority,^in
modifying what constitutes a Controlled Substance Offense, thereby causing thousands of criminal
defendants' to be unlawfully sentenced to Career Offender Enhancements for decades. This was
done by an act of the Sentencing Commission, not by an act of Congress. The Commentary that
added non-existent offense tOLthe.J 4B1.2(b) Guidelines for the purpose of invoking the Career
Offender Enhancement was implemented November 1st, 1989. The Judicial branch, as a legal expert,
usurped its power by failing to identify that the added offenses in the Commentary was not an
interpretation of what constitutes a Controlled Substance Offense under § 4B1.2(b), but a
modification of that Guideline, which had no legal force, and should not have been used as
offenses to invoke Career Offender Enhancements on criminal defendants' in the Federal system.
On July 23rd, 2010, Petitioner was sentenced to the Career Offender Enhancement, and recieved
234 months to be served with the Bureau of Prisons. The Sentencing Court invoked the Career
Offender Enhancement on the basis that his instant offense for attempted manufacture of
methamphetamine qualified as a Controlled Substance Offense under § 4B1.2(b). In the decision
of United States v. Havis, No. 17-5772 (decided and filed on June 6th, 2019.), from the United
States Court of Appeal's for the Sixth Circuit; Petitioner recognized that his sentence was
unlawful. See Appendix A-3. On June 15th, 2020, Petitioner filed a Writ of Mandamus to obtain
relief for his unlawful sentence. See Appendix A-2. On June 23rd, 2020, the Seventh Circuit
Court of Appealis.jdenied the Writ without conducting an inquiry into Petitioner's fruitful
claim that his sentence is unlawful and a product of Usurpation of Judicial Power. Additionally,
Petitioner cannot meet the requirements under § 2255(h), to request permission from the Court
of Appeal's to file a second § 2255 motion, and his first § 2255 motion was denied on or
about July 12th, 2012. Petitioner also cannot meet the requirements under § 2255(e) gateway
to file a § 2241, because he was not sentenced pre-Booker, and the Havis decision has not
been declared retroactive by the Supreme Court. This Writ of Mandamus is the correct remedy
to correct the usurpation of judicial power and the separation of powers violation under the
Fifth and Tenth Amendment of the United States Constitution. Petitioner contends that the
United States Court of Appeal's for the Seventh Circuit had the power to review on a petition
ror

(7)

for mandamus the basic, undecided question, whether the United States District Court for the
Central District of Illinois 9 > as a legal expert, committed a Usurpation of Judicial Power;
when it sentenced the Petitioner to the Career Offender Enhancement through an act of the
Sentencing Commission, rather than, through an act of Congress. Which was in direct violation
of 18 U.S.C. § 3553 "imposition of Sentence" (a) (4) (A) (i) and (5) (A), and a clear usurpation
of judicial power. See Schlagenhauf v. Holder, 379 U.S. 104, 114, 85 S. Ct. 234, 13 L. Ed.
2d 152 (1964); See also Cheney v. United States District Court for the District of Columbia,
542 U.S. 367 (2004). The writ is appropriately, issued, when there is "usurpation of judicial
power" or a clear abuse of discretion, Bankers Life & Casualty Co. v. Holland, supra, 346
U.S. at 383, 98 L. Ed. at 112.

ANALYSIS OF THE SENTENCING COMMISSION'S ROLE AS AN INDEPENDENT BODY
WITH QUASI-LEGISLATIVE AND QUASI-JUDICIAL POWER.
Congress created the Commission as an independent body, "charged with the task of establishing
sentencing policies and practices for the Federal Criminal Justice System." Stinson v. United
States, 508 U.S. 36, 40-41 (1993). The Commission fulfills its purpose by issuing the Guide­
lines which provide direction to judges about the type and length of sentences to impose in
a given case. Id. at 41. Although judges have some discretion to deviate from the Guidelines'
recommendations, our procedural rules "nevertheless impose a serious of requirements on
sentencing Court's that cabin the exercise of that discretion," Peugh v. United States, 569
U.S. 530, 543 (2013). A judge cannot stray from a defendant's Guidelines range, for example,
without first giving an adequate explanation for the variance. See id. The Commission thus
exercises a sizable piece "of the ultimate Government power, short of Capital punishment"power to take away someones liberty. United States v. Winstead, 890 F.3d 1082, 1092 (D.C cir.
2018). That power is ordinarily left to two branches of Government-first to the legislature,
which creates a range of statutory penalties for each;;Federal crime, and then to judges,
who sentence defendants's within the statutory framework. But the Commission falls squarely
in neither the legislative or judicial branch; rather it is "an unusual hybrid in structure
and authority", entailing elements of both quasi-legislative and quasi-judicial. Mistretta
v. United States, 488 U.S. 361, 412 (1989). In Mistretta, the Supreme Court explained how
Cm.-

(8)

the Commission functions in this dual role without disrupting the balance of authority in
our Constitutional structure. Although the Cbmmission is nominally a part of the judicial
branch, it remains "fully accountable to Congress", which reviews each guideline before it
takes effect. Id. at 394; See also 28 U.S.C § 994(p). The rulemaking of the Commission,
moreover, "is subject to the notice and comment requirements of the Administrative Procedure
Act." Id. at 394; See also 28 U.S.C § 994(x). These constraints-Congressional review and
notice and comment-stand to safeguard the Commission from uniting legislative and judicial
authority in violation of the separation of powers. Unlike the Guidelines themselves, however,
Commentary to the Guidelines never passes through the gauntlets of Congressional review or
notice and comment. That is not a problem, the Supreme Court tells us, because the Commentary
has no independent legal force-it serves only to interpret the Guidelines

text, not to re-

place or modify it. See Stinson, 508 U.S. at 44-46; See also United States v. Rollins, 836
F.3d 737, 742 (7th cir. 2016)(en banc)(The application notes are interpretations of, not
additions to the Guidelines themselves...). Commentary binds Court's only "if the Guidelines
which the Commentary interprets will bear the same construction."

Therefore, the Petitioner asserts that there's no way in the Supreme Court's decision in
Mistretta, that it could have.-predicted;ithat_thejSentencing.,Commission had already violated
the constraints or was about to .violate the constraints under 28 U.S.C § 994(p). The Sentencing
Commission modified the 4B1.2(b) on November 1st, 1989, without Congress's approval.
Wherefore, the Petitioner prays that this Honorable Supreme Court grants this Petition
for Writ of Certiorari, and sets forth order finding that the Writ of Mandamus is the correct
remedy and solution to this blatant constraints violation on the part of the Sentencing
Commission; and further find that the United States Court of Appeal's for the Seventh Circuit
erred and abused its discretion by terminating inquiry into Petitioner's claim of usurpation
of judicial power against the United States-District Court for the Central District of Illinois.
Additionally, respectfully remand the issue back to the Seventh Circuit Court of Appeal's with
the directive to conduct inquiry into the claim of judicial usurpation of power; or in the
alternate remand this issue to the District Court for an evidentiary on Petitioner's claim.
(9)

Respectfully Submitted,

f.

A|

8 4

lZrry
ITARKS Jit. # 17008-4026 *
fET FEDERAL CORRECTIONAL INSTITUTION
P.O. BOX-6001
ASHLAND, KY. 41105-6001

(10)

CONCLUSION

The petition for writ of certiorari should be granted.

Respectfully Submitted,

t

a. oao

cm

